Ed »4or i al
XZ/30/2,0

U.S.

l^H " Zo (olZ.

H t'sFo r

Co cur 4 op A ppe,als

FI F+B C rtu.( F

Goo 5> t~1ae^Fn pls.oe^
Kleoj OvdeahS.l-A 'FoXSo - s^q#
t>eo Fed
dcrlPe<do ©P A-pf> e^4 a,Bi FX^
ULS, D.C.

8/iZ/l^
H

-2/Ul

Sou-4Fej-/^ DtsP opT-e/c.

Ho(-LS.Vd^ ^iV/.

P,£>. Boy Bx<©Xo

}4al»e.^s Z2.<$<-\

doask>n, Ty. '7r?2,o<g>
D'Srf/ssed

co*dE

fe/X 2/lS

pr^\ w_dtc^/
T.C.C. A,
Cap \ f© ( SFaFor*
Bo, 60* Xzs©g>
Aw.s-Krkixx. ^‘B'q'XC

/-ECeaS XX .©X

Deo1 ed u31 FPoud to riM.ZJn OY'A-eJ^
S'/B/Xd

T;C .C - A,

Pb HoVi3
R I), R. fveFPs-Oci
A°pF C;O.A,

Xx/S/13
X4 -1X' &© 'X 6'?

Mou.sFoo ;,Tx

Qfre.cV Appeal

AFP'X-r-^ e_d ; r-, pa^'rF /^ev-ers-ed
H /3o/Xb_
Alo. X2S6X1A

X

tr

P a/r4

E. T SF ; iFoLL-oPn

Tnd

£t<~cifFj pWa

TV

'V A
ST/\Tb
1*4-17__ G)DrTC>rt

TW-e_ IH4-

Co k

PdR

ConVaJ^^^L

TWc Cou^\rV of A pp-eals €~rr-eA m
.
id vAoldiiocj
(C toas noX cjt'ttq r VCaX XC-e. PSZ f-311-e.Q 4o
Vrvdoui-e, v'^.^oured Co *-» p cm-enVs ' -pUaV
2?) TU-t. deddnd airdr toaiv/-e.d U *5 COf“Jp laird (o-f" ^
O^Ae4-«jrM I'naWo o crC Sejn-femce^ b<-< >VA o4- o 10 1 Cjcd"7 O
AFf\V<wed , n pad / R^vefis^a .n pa \r¥

3

PC> (R

R-eVtIs-ed

ujR h'L)
-cl
i-i.o'l5-eJ
-fVded
Is) A. XvCal Co ten

T
_

A X C
4o ©CyexV- 4-o in ad f-n-ssaiafe.
Vs
atnA pv~e^\oubc\al vicV-im iVmdscA

r

B. TCid oaimS-ei Veiled Xo

pv^eSerV e„ tcinr<D m C M -P-Ci l ( I
pQ objecV Vo CocxrV 5«joXenc<n-_ot Appl i can
i r>
abcejoSc ©-R 3 cof-ipleVe. jda-H-eXcort! <-/ re^t>cXe<l P SX

C. TVtd

cLe.ounsd -fatled

X©

pioje_ef "Vo

AeA-ejcr^ioaVtori oP Appli cards
prfdr fo pum fS h M■cjo V~

LX Tir\ si

©R -W~id

Lifec

Se_n4-~emc^_-

4kc -facds q-R 4Xie_ cac-e_
^nA/or pw.Xt.$Xm-edf pi*vp-©&-e3
>U_j X-kad, Cad cocAmsei neX
acJKs) and /or om^ is^Sioio^ xA -e.

arvd /or DWi^^ntd

Cee_r-\ AiCfdervV
2) 1 A A C
tc

pv^e-

(Lqu.os-c[ Called Vo ConA-acd 2m ad e^ «-»-aAe-

iVv/^-SV-taaVioo \o -Vo
for- ^)ccv vV/mnocej£\S€L
XU-eYe, cs 3. reasonably probaX l
oot-imliVcd XWe. aCov-e. derfVc-lcfnV
©udcofie,

*3

?

P

orocee.Vm

P

3s

\ dl b

tO O tL

(^Appeal)

A o Pe. 11 a-fcc. c.ou.nse^ -failed Xo --fTl-y f-70-Cron -for no«-o

ft

, .
pav^uanV 4o T.R.A.P. Rd-e Z1-} ra$ s tboj
\r\
C^dfual
\-e^al ar^am-enVs 311-p^-e.d Co panV~ ©fr
•^inror^) A- V"P>roc^b< O.
"\C.-<-fc-

^ 3

&-R ^ roocool

X3

resSonaloU piroCabi 1 tP-j ~bla^rV f Ra-d CotcnS^-1

no~V-

CoMMilVcV -Vkc
acV^) a>n<V /c>r ot~ti~t tSS’ionjfj 4-^Aa©Y<_ <Ve.-(Vo-eoV
©vaV C&r-\<- erf 4tvc_ 3ppel!ad«L pcocked ('no ooould haYe. b-^e.n d^VjC/cid'
Demed UJrlAoaV U3 rMtn ^rdei-

Append(y A
1rE\>eRM_
4 IS - cv- 3 4 Al
x at
A.
X) Tdd

c

Coujasd

4o okjeel d \/1 c-ki r-7

A

\ t-ipzc:

<5\a^<jH'e-n'Vs t-ia<4t. before sende^nc-vacj amd
erdejced info -vVe^ recod 35 e-Vi^t/icE
7?) TVi d toumse) -failed 4o objeo-f 4p Wdl co-eds pre
dderfninafzon ok Ser>-Xh6«_, prtor 4~o c.o r-< p I ~e4d4
pSX 3nd picoisk Men 4 b ean n-«r .
-3} Tr\d counsel failed To object' 4o 4"ke, 4-r(d CouJr
Scy\\tM CAm^ 4k-e pe44do n-ejr \ n \V\^_ aks-en Se crf~ a-n
1r\ pA \V
35 4-o CoMpenfeJnocj and drcx-g/dJcob-o'l
u.adioo
Mr) Triad Collo sel Qi'ed 4t> make 3- reasonable inYesf^adovi
id4o Xke_ Case. an d 4a\W 4c. o^jcek 4o inaddsssik f-e,

4

CXdTavxeo caS ev fd en oe_,
B.X A A C (Apf<d(ade')
A) Appel lafe Ceunsd fatle3 4d dTie medion for- r^Cxa Wv©l
’£) Appel ia4e Counsel failed 4o raiSe. issues cle^ly
^froneyer fk^»n 4bc*se appealed 03k icX 14 cdcdSisiLd
(A) 44«_ -W\s4 Couv4 a 11 ooj1 1 ^p-sj (Vi pacfdadeM-en4~S
bekne serfenaojsj and ait o uj ;W« 4k ee" ‘ ‘
'
edered m4<2i Tke_ fexocd as cdaeriee. J
( 3)4X1 a\ Counsels clear 'ne4fec44vcPrl^9 -fo>r -fdk'
4o ©bjecV 4© 4W<c ' ^ p rop-c/r s4s4-e_r-»en4s
5en 4en ci n a ^
(CJ) Triad

3

bed <ne_

CoudseAs ikefFeekV-en CjSS fo «r-fa i |K nj

do

inMcsfi^ak—> Q.y\d fa-diVa 4® objeef 4o (VaRnn^s3b W. e*4re n co ocS ey iach cq_
3ppl f cS/ld
C_. Tc. Xld C<?ok.vT A bvAS<_ 0 iscjrck on
ud v c 1

PTJ

el-earl
Un fair 4^12-1 en v iroKH ctv4
d
X) Wc VnXl Co<^u4 f)CVKildrc<4 \AcklVi i rtp ad s4d tC</V4s
and e^4-or«d 4 k
reco^J a=2
V>e4orc 5en4enCi
evidence^
X) Tk?_ 4 rial Cou^vT pCcd-e_4ccrAvr\exi p-eckrln'en.-e^Lf a'^dcnc^
before 2. C<0 f-t leded PLSX 3nd p otn is k m -e^n.4 k-e/air^iV^
in

f

"3

P

A ppcnd ty i\
federal
R* 1E-CM - 3^ 11
3l

\ vv'&l
C\<_24rl

Co uurV

3

2L 11 ouj e_d

-€_xl'r'€-ja
n ore p^jaia.4 ^ CA ad + U 3.^

■€_V t el

P

-e_n

rxD^ 3_ 1W -C,

Case: 19-20612

Document: 00515689302

Page: 1

Date Filed: 12/30/2020

®mteb States Court of Appeals!
for tfje Jftftf) Circuit
No. 19-20612

William Edward Erickson
Petitioner—Appellant,
versus
Bobby Lu m p k i n , Director, Texas Department ofCriminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:15-CV-3411

ORDER:
William Edward Erickson, Texas prisoner # 1805402, pleaded guilty
to murder and was sentenced to life imprisonment. He now moves for a
certificate of appealability (COA) to challenge the district court’s denial of
his 28 U.S.C. § 2254 petition on procedural grounds and on the merits.
To obtain a COA, Erickson must make a substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2); Slack v.
McDaniel, 529 U.S. 473, 484 (2000). Where the district court has denied
relief on procedural grounds, he must show “that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a

Case: 19-20612

Document: 00515689302

Page: 2

Date Filed: 12/30/2020

No. 19-20612
constitutional right and that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.” Slack, 529 U.S. at
484. Where the district court has rejected constitutional claims on their
merits, a COA should issue only if Erickson “demonstratives] that jurists of
reason could disagree with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S.
322,327 (2003). Erickson has not made the requisite showing. See id.\ Slack,
529 U.S. at 484.
Accordingly, Erickson’s motion for a COA is DENIED.
/s/ Leslie H. Southwick_
Leslie H. Southwick
United States Circuit Judge

gj COUff?

/vl

ww
S mm:

O?
\i«*

xv»

&

A True Copy
Certified order issued Dec 30, 2020

Ul,
U
Clerk, U.S. Court of Appeals, Fifth Circuit

2

Case 4:15-cv-03411 Document 39 Filed on 08/12/19 in TXSD Page lot 27
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
WILLIAM EDWARD ERICKSON,
TDCJ# 1805402,
Petitioner,
v.
LORIE DAVIS, Director, TDCJ-CID
Respondent.

§
§
§
§
§
§
§
§
§
§

August 12, 2019
David J. Bradley, Clerk

CIVIL ACTION NO. H-15-3411

OPINION AND ORDER
State inmate William Edward Erickson (TDCJ #1805402) filed a petition for
a writ of habeas corpus by a prisoner in state custody under 28 U.S.C. § 2254.
Respondent filed a motion for summary judgment. Petitioner filed a response. For
the reasons below, Respondent’s motion for summary judgment is granted.
I.

Background and Petition
On November 20, 2010, a Harris County grand jury returned an indictment

against Petitioner in Case No. 1620292, charging him with one count of murder.
Dkt. #8-13 at 82. After pleading guilty on August 22, 2012, the 179th District
Court in Harris County, Texas, entered a judgment against Petitioner and sentenced
him to a term of life imprisonment with the trial court’s costs assessed to
Petitioner. Id. at 86.

i

Case 4:15-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 2 of 27

The judgment was affirmed on December 5, 2013, but the appellate court
reversed the trial court’s assessment of its costs to Petitioner. See Dkt. #7-17. The
court of appeals summarized the facts of the offense, which were documented in a
Pre-sentence Investigation (“PSI”) as follows:
According to the PSI, on November 20, 2010, Erickson and
others went to a motel room where the complainant was administering
tattoos. Several witnesses related that Erickson and the complainant
argued over the price of the tattoo at which time Erickson shot the
complainant between two and four times killing him. According to
Erickson, the disagreement with the complainant stemmed from the
price of Xanax pills, not the tattoo. At the time of this offense,
Erickson was on deferred adjudication probation for evading arrest
and attempted aggravated assault. The evading arrest charge arose
from an attempted traffic stop in which Erickson fled because he had
an outstanding arrest warrant for criminal mischief. Erickson admitted
that on the night of the offense he had been drinking beer, taking pills,
and using “crystal meth.”
The PSI lists Erickson’s prior criminal record dating back to
1997. Erickson’s record reflects convictions for driving while
intoxicated, theft of a firearm, possession of marijuana, evading arrest
with a motor vehicle, burglary of a motor vehicle, assault causing
bodily injury, and criminal mischief.
In a section entitled, “Mental health,” the PSI reports that
Erickson was evaluated while incarcerated in the Harris County Jail
and was diagnosed with Attention Deficit Hyperactivity Disorder
(ADHD), Bipolar Disorder, and Panic Disorder with Agoraphobia.
Erickson reported that he had been previously prescribed Risperdal
and Trileptal, but was currently not taking any medications.
In a section entitled, “Alcohol/Drug Usage,” the PSI reported
that Erickson reported drinking alcohol and using marijuana since he
was fifteen years old, but stopped using marijuana when he was
twenty-eight years old. He began using cocaine at the age of sixteen
2

**

Case 4:15-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 3 of 27

and has never stopped using it. Erickson began using
methamphetamines when he was twenty-four years old and admitted
to using methamphetamines the night of the offense. Erickson began
using LSD at the age of sixteen, but stopped when he was twenty
years old. At the age of twenty-one, Erickson began using Ecstasy, but
stopped when he was twenty-nine. Erickson stated he began using
Xanax when he was twenty years old, but stopped in 2010, at the age
of thirty. Erickson attended an inpatient treatment program in 1997 for
drug addiction, but left due to “financial problems.” Erickson reported .
attending twelve-step meetings while in the Harris County Jail.
Under “Sentencing Options” the report stated:
Due to the nature of the charges currently pending
against the defendant and the subsequent cases pending
in Polk County, Texas, the defendant is not considered
appropriate for supervision either in the community or
within a community based program. Accordingly, this
section has been omitted.
At the PSI hearing, the complainant’s parents and sister
testified to the impact of the complainant's death on their lives.
Stephen Wyatt testified that Erickson and a friend attempted to steal
his truck outside of a convenience store in Polk County. When Wyatt
tried to stop them, Erickson drove the truck into the convenience store
hitting Wyatt and breaking his leg. Deputy Vance Berry of the Polk
County Sheriffs Department testified that Erickson was arrested after
the incident in Polk County. After hearing closing arguments the trial
court sentenced Erickson to life in prison.
See Erickson v. State of Texas, Nos. 14-12-00767-CR, 2013 WL 6405476, at *1-2
_ (Tex. App.-Houston [14th Dist.] Dec. 5, 2013); Dkt. #7-17.
The State of Texas filed a petition for discretionary review, which was
granted, and the Texas Court of Criminal Appeals reversed the intermediate
appellate court’s determination that trial court costs should not have been assessed
3

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 4 of 27

to Petitioner. Dkt. #8-2. On remand, the intermediate court of appeals affirmed
the trial court’s judgment in its entirety on May 29, 2014. Dkt. #7-16. Petitioner
did not file a petition for discretionary review.
Petitioner filed a state application for habeas corpus relief alleging that both
his trial counsel and appellate counsel provided ineffective assistance. See Dkt.
#8-12 at 10-11. The Texas Court of Criminal Appeals denied that application
without written order or a hearing on June 3,2015. Dkt. #8-9.
On November 12, 2015, Petitioner filed the instant § 2254 petition, asserting
three claims. i

Petitioner alleges in claim one that his trial counsel was

constitutionally ineffective for failing to: (a) object to victim impact statements that
were made before sentencing and entered into the record as evidence; (b) object to •
the trial court’s pre-determination of his sentence prior to the completion of his PSI
and conclusion of his sentencing hearing; (c) object to the trial court sentencing the
Petitioner without inquiring into his competency and Drug/Alcohol evaluation; and
(d) otherwise perform to a constitutional standard. See Dkt. #1 at 6; Dkt. #35 at 89.

Specifically, Petitioner further alleges that his counsel failed to: (d)(i)

investigate the underlying facts of the murder, rendering his plea involuntary;
(d)(ii) investigate competing witness accounts of the murder, which could have
1 Petitioner appears to agree with Respondent’s characterization of his claims and responds to Respondent’s motion
for summary judgment using Respondent’s characterization and number system. See Dkt. #38 at 5, 7 (adopting the
numbering system of Respondent when presenting his claims in his response to Respondent’s motion for summary
judgment and using Respondent’s numbering system when discussing his claims). Therefore, for the sake of clarity,
the Court will use discuss the claims as presented by Respondent.
4

Case 4:15-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 5 of 27

been used to obtain a lesser sentence; and (d)(iii) object to the testimony of
Detective Vance Berry and Mr. Steve Wyatt at sentencing, who described an
unadjudicated offence committed in Polk County. Id.
Petitioner argues in claim two that his appellate counsel was ineffective
because he failed to: (a) file a motion for a new trial; and (b) raise meritorious legal
issues.

Id.

Petitioner alleges his appellate counsel should have raised the

following issues: (b)(1) trial court error in allowing victim impact statements
before the completion of the sentencing hearing and allowing these statements to
be entered into the record as evidence; and (b)(2) trial counsel’s ineffectiveness for
failing to object to the victim impact statements, investigate his case, and object to
inadmissible extraneous evidence. Id.
In claim three, Petitioner alleges that the trial court abused its discretion and
prejudiced him in a “clearly unfair trial environment.” Id. at 7.

Specifically,

Petitioner alleges that the trial court abused its discretion by: (a) permitting victim
impact statements before completing his sentencing hearing and entering the
statements into the record as evidence; (b) pre-determining Petitioner’s sentence
before the PSI was completed and the sentencing hearing concluded; and (c)
allowing extraneous evidence that was “clearly more prejudicial and probative.”
Id.
Respondent filed a motion for summary judgment, contending that claims
5

*•

Case 4:l5-cv-03411 Document 39 Filed on 08/12/19 in TXSD Page 6 of 27

1(c) and l(d)(iii), claim 2, and claims 3(a) and 3(c) are unexhausted and
procedurally barred, and that the remaining claims lack merit. Dkt. #35 at 10.
In his response to the motion for summary judgment, Petitioner abandons
claim 2 and claims 3(a) and 3(c).

Dkt. #38 at 7.

Petitioner argues that the

remaining claims are exhausted and otherwise have merit because the state habeas
court’s findings were objectively unreasonable.

See generally id. at 10-20.

Because Petitioner agrees with Respondent as to claim 2 and claims 3(a) and 3(c),
the Court will deny these claims for relief as unexhausted and discuss only the
disputed claims.
II.

Standard of Review
To be entitled to summary judgment, the pleadings and summary judgment

evidence must show that there is no genuine issue as to any material fact and the
moving party is entitled to judgment as a matter of law. Fed. R. Crv. P. 56(a). The
Court may grant summary judgment on any ground supported by the record, even
if the ground is not raised by the movant. United States v. Houston Pipeline Co., 37
F.3d 224, 227 (5th Cir. 1994). While Rule 56 of the Federal Rules regarding
summary judgment applies generally “with equal force in the context of habeas
corpus cases,” Clark v. Johnson, 202 F.3d 760, 764 (5th Cir. 2000), it applies only
to the extent that it does not conflict with the habeas rules. Smith v. Cockrell, 311
F.3d 661, 668 (5th Cir. 2002), abrogated on other grounds by Tennard v. Dretke,
6

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 7 of 27

542 U.S. 274 (2004).
The writ of habeas corpus provides an important, but limited, examination of
an inmate’s conviction and sentence. See Harrington v. Richter, 562 U.S. 86, 103
(2011) (noting that “state courts are the principal forum for asserting constitutional
challenges to state convictions”). The Anti-terrorism and Effective Death Penalty
Act (the “AEDPA”), Pub. L. No. 104-132, 110 Stat. 1214 (1996), codified as
amended at 28 U.S.C. § 2254(d), “imposes a highly deferential standard for
evaluating state-court rulings and demands that state-court decisions be given the
benefit of the doubt”; it also codifies the traditional principles of finality, comity,
and federalism that underlie the limited scope of federal habeas review. Renico v.
Lett, 559 U.S. 766, 773 (2010) (quotations omitted).
AEDPA “bars relitigation of any claim ‘adjudicated on the merits’ in state
court, subject only to the exceptions in [28 U.S.C.] §§ 2254(d)(1) and (d)(2).”
Richter, 562 U.S. at 98. “When a federal claim has been presented to a state court
and the state court has denied relief, it may be presumed that the state court
adjudicated the claim on the merits in the absence of any indication or state-law
procedural principles to the contrary.” Id. at 99. A federal court on habeas review,
therefore, can only grant relief if “the state court’s adjudication of the merits was
‘contrary to, or involved an unreasonable application of, clearly established
Federal law.’” Berghuis v. Thompkins, 560 U.S. 370, 378 (2010) (quoting 28
7

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 8 of 27

U.S.C. § 2254(d)(1)). The focus of this well-developed standard “is not whether a
federal court believes the state court’s determination was incorrect but whether that
determination was unreasonable—a substantially higher threshold.” Schriro v.
Landrigan, 550 U.S. 465, 473 (2007). Where a claim has been adjudicated on the
merits by the state courts, relief is available under § 2254(d) only in situations in
which there is no possibility that fair-minded jurists could disagree that the state
court’s decision conflicts with Supreme Court precedent. Richter, 562 U.S. at 102.
Whether a federal habeas court would have, or could have, reached a
conclusion contrary to that reached by the state court on an issue is not
determinative under § 2254(d). Id. (“Even a strong case for relief does not mean
that the state court’s contrary conclusion was unreasonable.”). Thus, AEDPA
serves as a “guard against extreme malfunctions in the state criminal justice
systems,” not as a vehicle for error correction. Id. (citation omitted); see also
Wilson v. Cain, 641 F.3d 96, 100 (5th Cir. 2011). “If this standard is difficult to
meet, that is because it was meant to be.” Richter, 562 U.S. at 102.
“Review under § 2254(d)(1) focuses on what a state court knew and did.”
Cullen v. Pinholster, 563 U.S. 170, 182 (2011). Reasoning that “[i]t would be
strange to ask federal courts to analyze whether a state court’s adjudication
resulted in a decision that unreasonably applied federal law to facts not before the
state court,” the Supreme Court in Pinholster explicitly held that “[i]f a claim has
s

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 9 of 27

been adjudicated on the merits by a state court, a federal habeas petitioner must
overcome the limitation of § 2254(d)(1) on the record that was before that state
court.” Id. at 185. Thus, “evidence introduced in federal court has no bearing on
§ 2254(d)(1) review.” Id
Under 28 U.S.C. § 2254(e)(1), “a determination of a factual issue made by a
State court shall be presumed to be correct” and the “applicant shall have the
burden of rebutting” this presumption “by clear and convincing evidence ” Unlike
§ 2254(d), no adjudication on the merits is needed for § 2254(e)(1) to apply.
Murphy v. Davis, 901 F.3d 578, 565 (5th Cir. 2018). Section 2254(e)(1) applies to
factual determinations “made by a State court,” making no distinction between trial
and appellate courts. Id.
Courts construe pleadings filed by pro se litigants under a less stringent
standard than those drafted by attorneys. Haines v. Kemer, 404 U.S. 519 (1972);
Bledsue v. Johnson, 188 F.3d 250, 255 (5th Cir. 1999). Thus, pro se pleadings are
entitled to a liberal construction that includes all reasonable inferences that can be
drawn from them. Haines, 404 U.S. at 521. Nevertheless, “the notice afforded by
the Rules of Civil Procedure and the local rules” is considered “sufficient” to
advise a pro se party of his burden in opposing a summary judgment motion.
Martin v. Harrison County Jail, 975 F.2d 192, 193 (5th Cir. 1992).

9

case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in txsd Page 10 of 27

III.

Discussion

Respondent argues that claims 1(c) and (l)(d)(iii) are unexhausted and
procedurally barred while the remaining claims lack merit.
A. Whether Petitioner’s Claims are Exhausted or Procedurally Barred
Title 28 U.S.C. § 2254(b)(1)(A) requires that federal habeas petitioners fully
exhaust their available state court remedies before proceeding in federal court. The
exhaustion requirement reflects the policy of federal-state comity, which is
designed to provide the state courts an initial opportunity to consider and correct
alleged violations of a prisoner’s federal rights. See Anderson v. Johnson, 338
F.3d 382, 386 (5th Cir. 2003). The exhaustion requirement is satisfied when the
substance of a petitioner’s federal habeas claim was fairly presented to the highest
state court. Mercadel v. Cain, 179 F.3d 271, 275 (5th Cir. 1999). A claim may be
fairly presented via direct appeal or state habeas proceedings. Orman v. Cain, 228
F.3d 616, 620 (5th Cir. 2000).

Dismissal is not required when allegations

presented for the first time in a federal habeas petition supplements, but does not
fundamentally alter, a claim presented to the state court. Anderson, 338 F.3d at
386-87 (internal quotation marks and citation omitted).
A distinct but related limit on the scope of federal habeas review is the
doctrine of procedural default. If a state court clearly and expressly bases its
dismissal of a prisoner’s claim on a state procedural rule, and that procedural rule
10

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 11 of 27

provides an independent and adequate ground for the dismissal, the prisoner has
procedurally defaulted his federal habeas claim. Coleman v. Thompson, 501 U.S.
722, 731-32 (1991); see Harris v. Reed, 489 U.S. 255, 262-63 (1989); Wainwright
v. Sykes, 433 U.S. 72, 81 (1977). A procedural default also occurs when a prisoner
fails to exhaust available state remedies and “the court to which the petitioner
would be required to present his claims in order to meet the exhaustion
requirement would now find the claims procedurally barred.” Coleman, 501 U.S.
at 735 n.l.
1. Claim 1(c)

As understood by both Petitioner and Respondent, Petitioner alleges in claim
1(c) that trial counsel provided ineffective assistance by failing to object to the trial
court sentencing him in the absence of a deeper inquiry into both his competency
and drug/alcohol dependency because it would have established that his prior
guilty plea was involuntary. See Dkt. #35 at 8-9.
Claim 1(c) is unexhausted and, accordingly, is denied.

In his state

application, Petitioner alleged that his trial counsel provided ineffective assistance
by failing to object to the trial court sentencing him with an incomplete PSI. Dkt.
#8-12 at 47. Specifically, Petitioner argued that the PSI lacked a drug and alcohol
evaluation and a psychological evaluation.

Id.

Petitioner argued that these

evaluations signaled the need for drug and mental health treatment rather than a
ii

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 12 of 27

life of incarceration.

See id. at 51.

Petitioner’s allegation in claim 1(c).

This claim, however, is distinct from
Petitioner now claims that his counsel

provided ineffective assistance for failing to object to the trial court sentencing him
without the aid of a psychological and drug/alcohol evaluation because it would
have shown his guilty plea was involuntary.

While counsel’s alleged error is

essentially the same, the instant claim requires a court to evaluate whether the lack
of drug or mental health evaluation before his sentencing hearing invalidates his
guilty plea. Claim 1(c) is different from his state habeas claim, and, therefore, he
did not fairly present this federal claim to the Texas Court of Criminal Appeals in a
procedurally correct manner. See Nickleson v. Stephens, 803 F.3d 748, 753 (5th
Cir. 2015) (“[Wjhere petitioner advances in federal court an argument based on a
legal theory distinct from that relied upon in the state court, he fails to satisfy the
exhaustion requirement.”) (internal question marks and citations omitted). The
Court finds that Petitioner did not exhaust this claim.2
Moreover, the claim is procedurally defaulted. The Texas abuse-of-writ
doctrine prohibits a second habeas petition, absent a showing of cause, if the
applicant urges grounds therein that could have been, but were not, raised in his
first habeas petition. See Ex parte Barber, 879 S.W.2d 889, 891 n.l (Tex. Crim.
App. 1994) (en banc) (plurality opinion). That doctrine represents an adequate
2 Regardless, even if the claim were exhausted, the PSI contained both a drug use and mental health history. See
Dkt. #7-8 at 5-9. Thus, this information was available to the trial court for consideration at sentencing.
12

case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 13 of 27

state procedural bar for purposes of federal habeas review. Fearance v. Scott, 56
F.3d 633, 642 (5th Cir. 1995). Since Petitioner has not provided any argument for
cause as to his failure to raise this claim in his initial state habeas petition, the
Texas abuse-of-writ doctrine would constitute an independent and adequate bar to
a successive habeas petition. Therefore, the claim is procedurally defaulted.
2. Claim l(d)(iii)
Petitioner alleges in claim l(d)(iii) that his trial counsel provided ineffective
assistance by not objecting to the testimony of Detective Berry and Mr. Wyatt at
his sentencing hearing because they discussed an unadjudicated offense Petitioner
committed in Polk County. Dkt. #35 at 9.
This claim is not specifically included in Petitioner’s state application. See
generally Dkt. #8-12 at 5-70. Petitioner did include a claim on state habeas review
that his trial counsel provided ineffective assistance by not objecting to the trial
court’s acceptance of victim impact statements that contained inflammatory
information. See id at 34-38. However, that claim does not address the testimony
of Detective Berry or Mr. Wyatt at Petitioner’s sentencing hearing and appears to
dispute only the victim impact statements discussed in the PSI.

Moreover,

Petitioner has not shown cause as to why he did not present the claim in his habeas
petition. Therefore, the claim is unexhausted and procedurally defaulted. The
claim is denied.
13

Case 4:15-cv-03411 Document 39 Filed on 08/12/19 in TXSD Page 14 of 27

B. Whether Petitioner’s Remaining Claims Lack Merit
The following remaining claims are presented for consideration. In claim 1,
whether Petitioner’s trial counsel provided ineffective assistance by failing to: (1)
object to the victim impact statements; (2) object to the trial court’s pre­
determination of his sentence before the sentencing hearing; and (3) make a
reasonable investigation into the underlying facts of the murder. Dkt. #35 at 8-9.
Petitioner alleges that counsel’s alleged failure to make a reasonable investigation
renders his guilty plea involuntary and that Petitioner would have been sentenced
more leniently. Id. at 9. In claim three, Petitioner alleges that the trial court erred
by pre-determining his sentence before Petitioner’s PSI and sentencing hearing
was completed. Id. at 10.
1. Claim 1- Ineffective Assistance of Trial Counsel
A criminal defendant has a constitutional right to the effective assistance of
counsel at trial and on a first appeal as of right. Evitts v. Lucey, 469 U.S. 387, 39395 (1985); Strickland v. Washington, 466 U.S. 668, 688 (1984); Anders v.
California, 386 U.S. 738, 744 (1967). An ineffective assistance of counsel claim is
governed by the standard set forth in Strickland v. Washington, 466 U.S. at 688.
See also Styron v. Johnson, 262 F.3d 438, 450 (5th Cir. 2001) (applying the
Strickland standard to ineffective assistance claims against appellate counsel). To
establish a claim of ineffective assistance of counsel, a petitioner must show that:
14

Case 4:15-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 15 of 27

(1) counsel’s performance fell below an objective standard of reasonableness; and
(2) but for counsel’s deficient performance, the result of the proceeding would
have been different. Strickland, 466 U.S. at 688.
A reviewing court holds a strong presumption that counsel’s conduct fell
within the wide range of reasonable professional assistance or sound trial strategy.
Id. at 688-89. Judicial scrutiny of counsel’s performance is highly deferential, and
every effort is made to eliminate the distorting effects of hindsight. Id. at 689.
Where a petitioner’s ineffective assistance claims were reviewed on the merits
under the Strickland standard, and denied by the state court, federal habeas relief
will be granted only if the state court’s decision is contrary to or is an unreasonable
application of Strickland, or if the decision is based on an unreasonable
determination of the facts considering the evidence presented. Bell v. Cone, 535
U.S. 685, 698-99 (2002); Haynes v. Cain, 298 F.3d 375, 379-82 (5th Cir. 2002).
a. Claim 1(a)
Statements

Failure

to

Object

to

Victim-Impact

Petitioner alleges that his trial counsel provided ineffective assistance by
failing to object to the victim impact statements made at his sentencing hearing and
admitted into evidence. See Dkt. #1 at 6. Specifically, Petitioner alleges that these
statements may only be made after the sentencing court has announced the
sentence and its terms, citing Johnson v. State, 286 S.W.3d 346 (Tex. Crim. App.

15

Case 4:l5-cv-0341l Document 39 Filed on 08/12/19 in TXSD Page 16 of 27

2009). See Diet. #2 at 9.
In Johnson, the Texas Court of Criminal Appeals discussed the effect of
Article 42.03 of the Texas Rules of Criminal Procedure. Article 42.03 allows a
victim to make unsworn and uncross-examined impact testimony after the
sentencing court announces the terms and conditions of the sentence. See Johnson,
286 S.W.3d at 349. The provision’s purpose is to “protect the trial judge from any
implicit or explicit accusations that he could be influenced by the victim-allocution
statement.” Id. at 351.
Respondent notes, however, that Article 37.07 of the Texas Code of
Criminal Procedure also affects the state trial court’s determination of a sentence.
Article 37.07 provides the state trial court with discretion to take testimony
presented by the parties that it deems relevant to sentencing. See Gifford v. State,
980 S.W.2d 791, 793 (Tex. App. - Houston [14th Dist.] Sept. 17, 1998). The
testimony, however, must be sworn and be available for cross examination. Id.
The testimony must also have ‘“some bearing on the defendant’s ‘personal
responsibility and moral guilt.’” Stavinoha v. State, 808 S.W.2d 76, 79 (Tex.
Crim. App. 1991). In reviewing a trial court’s relevancy decision, so long as the
trial court’s ruling was within “the zone of reasonable disagreement,” a reviewing
court will not replace its judgment for that of the trial court. See Ford v. State, 919
S.W.2d 107, 115 (Tex. Crim. App. 1996).
16

Case 4:15-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 17 of 27

The Texas Court of Criminal Appeals, through the trial court’s findings of
fact, found that the victim impact testimony was admissible and that, had
Petitioner’s trial counsel objected, the trial court would not have sustained the
objection or would have committed error in overruling the objection. See Dkt. #813 at 48. Through adopting the findings of fact in this case, the Texas Court of
Appeals necessarily found that the evidence was admissible. On review, a federal
habeas court must defer to a state court’s interpretation of its own law, particularly
regarding evidentiary rulings. See Garza v. Stephens, 738 F.3d 669, 677 (5th Cir.
2013).

Petitioner also does not provide support for his contention that the testimony
was inadmissible. The witnesses at issue were placed under oath and Petitioner’s
counsel had the opportunity to cross examine them. See Dkt. #7-5 at 33-49.
Additionally, the state elicited the testimony to describe the victim’s life and goals,
rather than to afford them the opportunity to “vent” about their views about the
offense, the defendant, and the effect of the offense. See id.\ Johnson, 286 S.W.3d
at 349 n.12 (indicating that Article 42.03 describes statements not intended to be
evidence and allows victims or their family to air their concerns regarding the
defendant and the crime); Bray v. State, 1996 WL 460029 *7 (Tex. App. - San
Antonio [4th Dist.] Aug. 14, 1996) (“Nowhere in appellant’s brief does he
demonstrate, or even argue, that the ‘victim impact’ evidence was not relevant to
17

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 18 of 27

sentencing or that the trial court's ruling was an abuse of discretion. We decline to
hold that the trial court abused its discretion by ruling that the evidence was
relevant to the jury’s assessment of punishment.”). Finally, Petitioner has not
shown that he was prejudiced by the testimony because, at his sentencing hearing,
the trial court only discussed the testimony of Mr. Wyatt when it determined that
Petitioner was a danger to society. See Dkt. #7-5 at 54-55. The claim is denied.
b. Claim 1(b)- Failure to Object to Pre-determined
Sentence
Petitioner alleges that his counsel provided ineffective assistance by failing
to object to the state trial court’s alleged pre-determination of his sentence.
Petitioner claims that a notation on his plea agreement paperwork shows that the
state trial court determined that his sentence would be life in prison before his
sentencing hearing. See Dkt. #2 at 17-18. Specifically, Petitioner alleges that after
the State, the trial judge, and his attorney signed the plea paperwork, but before his
sentencing hearing, the state trial judge made a notation on the plea agreement
paperwork. Id. On a portion of the form set aside for the State’s recommendation
as to punishment, there is a handwritten notation of “life sentence,” that is initialed
by the trial court, Judge Randy Roll. Petitioner alleges that the notation was made
on the same date he pleaded guilty because the document is date stamped
elsewhere on the page. Id. Counsel’s alleged failure to review the record and

18

Case 4:15-cv-Q34ll Document 39 Filed on 08/12/19 in TXSD Page 19 of 27

object to the notation is the basis of Petitioner’s ineffective assistance of counsel
claim. Id.
The issue of whether Petitioner’s sentence was improperly pre-determined
by the trial court was raised and rejected on direct appeal. In concluding that the
claim was without merit, the appellate court viewed all of the documentation and
found no support for Petitioner’s claim:
[Ajppellant contends the trial court improperly predetermined
appellant’s life sentence. Appellant argues that a notation on the plea
papers reflects the trial court’s predetermination. On the second page
of appellant’s “Plea of Guilty” there is a paragraph, which states, “I
intend to enter a plea of guilty and the prosecutor will recommend that
my punishment should be set at
Handwritten in the
blank is the notation, “Without Agreed Recommendation — PSI.”
Also handwritten in the blank is the notation, “Life Sentence RR.”
Appellant contends that the trial court made the notation concerning
the life sentence at the time he signed the plea papers, thus
predetermining appellant’s sentence before reviewing the PSI or
hearing evidence.
Moreover, there is no evidence in the record indicating when
this notation was made or for what purpose. The court’s docket sheet
reflects that on April 30, 2012:
Defendant ERICKSON, WILLIAM EDWARD appeared
in person with Counsel GONZALEZ, RICARDO N.
AARON BURDETTE appeared for the State.
Judge Presiding: ROLL, RANDOLPH EARL
Defendant waived indictment; Felony Information filed.
Defendant waived arraignment and entered a plea of
GUILTY.
Defendant, appearing to the Court to be sane, is
admonished by the Court of the consequences of said
plea.
19

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 20 of 27

Penalty recommendation of the State is: WITHOUT
AGREED RECOMMENDATION—PSI HEARING.
The docket sheet further reflects, on August 22, 2012:
August 22, 2012 (Wed)
Defendant: William Edward Erickson
With counsel: Ricardo Gonzalez
For State: Joseph Allard
Court reporter, Myma Hargis
Judge Presiding: Randy Roll
At 11:30 am PSI hearing came to be heard. All parties
present.
Witnesses were sworn. Both sides presented its evidence.
At 12:30 pm Court sentenced defendant to LIFE in
prison.
Notice of Appeal was filed at this time.
Appeal bond set at No Bond
The record reflects that the court accepted appellant’s guilty
plea without an agreed recommendation on April 30, 2012. Almost
four months later, on August 22, 2012, after holding a PSI hearing, the
court sentenced appellant to life in prison. The record reflects that the
trial judge’s initials are “R.R.” and at some time the notation, “Life
Sentence R.R.” was written on appellant’s plea papers. The record
does not reflect, as appellant suggests, that the trial court made this
notation “when he signed off on the plea papers
after it had left the
hands of the defense.” We will not accept as fact assertions made in
appellant’s brief that are not supported by the record.
Erickson, 2013 WL 6405476 at *4-5; Dkt. #7-17 at 6-9. While the appellate court
ultimately dismissed the claim because his trial counsel did not object to the
notation, the appellate court made a factual finding that the record did not show the
state trial court made the notation on the same date Petitioner pleaded guilty. Id.
Petitioner fails to present evidence overcoming the presumption of
20

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 21 of 27

correctness regarding the factual issue determined by the state habeas and appellate
courts. For example, Petitioner offers no evidence apart from the notation itself
that the state trial judge made the notation at the time he pleaded guilty. Moreover,
Petitioner does not show that his counsel would have been aware of the notation,
even if it had been made that day. According to Petitioner, the plea agreement
paperwork was in the trial court’s possession after it was signed. Since Petitioner’s
counsel would have had no reason to review the signature page of the plea
agreement paperwork to prepare for Petitioner’s sentencing hearing, Petitioner has
not established that counsel: (1) had an opportunity to object; or (2) that he was
ineffective in failing to raise the issue. Because Petitioner does not point to any
evidence showing that the trial court pre-determined his sentence before the PSI
process was completed, he does not show that his counsel had, but failed to make,
a valid objection.

In sum, Petitioner fails to demonstrate that his counsel’s

performance was deficient. Therefore, Petitioner’s claim for relief is denied.
c. Claims l(d)(i) and l(d)(ii)

Finally, Petitioner alleges that his counsel provided ineffective assistance by
failing to properly investigate the facts of his crime and competing accounts by
witnesses to the offense. Specifically, Petitioner alleges that his counsel failed to
investigate the facts or the law in Petitioner’s case and that “[i]t is clear counsel
failed to examine the facts involving his client in the incident that occurred at the
21

case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 22 of 27

Normandy Hotel, but relied only on notes from the prosecutor and police reports.”
Dkt. #2 at 22-23. Petitioner alleges that six other eye-witnesses’ accounts of the
crime were significantly different than Petitioner’s version of events and that his
cousin’s story matches his statement. Id. Petitioner alleges that counsel’s failure
to investigate caused him to be sentenced to life in prison. Id.
To the extent that Petitioner may be alleging that his guilty plea is invalid
because counsel’s failed to investigate the case, Petitioner’s guilty plea waives all
non-jurisdictional claims that are not directly related to the voluntary nature of the
plea. See United States v. Glinsey, 209 F.3d 386, 392 (5th Cir. 2000). Petitioner
does not appear to allege he would not have pleaded guilty but for counsel’s
ineffective investigation. Nor does he claim that, but for his counsel’s errors he
would have changed his plea and insisted on a trial. See Lee v. United States, 137
S. Ct. 1958, 1965 (2017) (“[W]hen a defendant claims that his counsel’s deficient
performance deprived him of a trial by causing him to accept a plea, the defendant
can show prejudice by demonstrating a ‘reasonable

probability that, but for

counsel’s errors, he would not have pleaded guilty and would have insisted on
going to trial.’”)

Instead, Petitioner appears to believe that further investigation

would provide mitigating evidence at sentencing. Petitioner also does not offer
evidence that the guilty plea was involuntary and that he did not understand the
sentence he could receive or the evidence against him. Finally, Petitioner’s own
22

Case 4:15-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 23 of 27

sworn written statements regarding his guilt in his plea agreement would contradict
allegations to the contrary. See Dkt. #8-13 at 76.
“An attorney need not pursue an investigation that would be fruitless, much
less one that might be harmful to the defense.” Richter, 562 U.S. at 108. Trial
counsel is “entitled to formulate a strategy that was reasonable at the time and to
balance limited resources in accord with effective trial tactics and strategies.” Id.
Moreover, “a defendant who alleges a failure to investigate on the part of his
counsel must allege with specificity what the investigation would have revealed
and how it would have altered the outcome of the trial.” Druery v. Thaler, 647
F.3d 535, 541 (5th Cir. 2011). Upon a reasonable investigation, defense counsel
also has an obligation to make reasonable strategic decisions regarding which
witnesses and evidence he will present. Strickland, 466 U.S. at 690-91. “[T]he
failure to present a particular line of argument or evidence is presumed to have
been the result of strategic choice.” Taylor v. Maggio, 727 F.2d 341, 347 (5th Cir.
1984).

“[A] tactical decision not to pursue and present potential mitigating

evidence on the grounds that it is double-edged in nature is objectively reasonable,
and therefore does not amount to deficient performance.” Rector v. Johnson, 120
F.3d 551, 564 (5th Cir. 1997).
The state habeas court determined that Petitioner’s counsel conducted a
thorough investigation of the case and that counsel also explained the options
23

case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 24 of 27

available to petitioner before pleading guilty and the consequences of each option.
See Dkt. #8-13 at 47. The state habeas court also found that Petitioner pleaded
guilty freely and voluntarily with a full understanding of the evidence the State
intended to use against him. Id. Finally, in concluding that Petitioner’s counsel
did not perform ineffectively by failing to pursue further investigation, the court
found that petitioner did not show what further investigation would have shown or
that additional defenses or witnesses were available. Id. at 48, 51.
The record does not support a claim that counsel’s alleged ineffectiveness
affected the voluntariness of Petitioner’s plea agreement or that the record lacked
information from the witnesses because the PS I contains statements from the
witnesses Petitioner believes his counsel should have interviewed. See Dkt. #7-6
at 16-18, Dkt. #7-7 at 1-4. Petitioner has also not shown that his counsel failed to
investigate the facts of his case to prepare for his sentencing hearing or that any
failure to investigate prejudiced Petitioner. Petitioner does not provide additional
statements from these witnesses. Nor does Petitioner state how any potential
statement would differ from the information contained within the PSI. Likewise,
Petitioner did not provide a statement from his cousin, who Petitioner says
confirmed his story, that differs from the information contained in the PSI. While
Petitioner does produce a statement from his mother saying that she would have
made statements at his sentencing hearing regarding his drug abuse and mental
24

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 25 of 27

health had counsel asked, Petitioner’s drug abuse and mental health history was
discussed within the PSI. See Dkt. #7-8 at 5-9. Finally, the state trial court
explicitly mentioned Petitioner’s mother’s statement at his sentencing hearing,
which indicates that she could have made these statements. See Dkt. #7-5 at 54.
For these reasons, Petitioner does not show that further investigation would have
uncovered more facts aiding him at sentencing.
Regardless, Petitioner’s version of events - that the murder was committed
over the price of recreational drugs - was discussed at sentencing and within the
PSI. Moreover, whether the victim was murdered because of the price of a tattoo
or drugs is immaterial. Instead, the record shows that Petitioner’s actions before
and after the murder - nearly killing Mr. Wyatt with his own automobile while
evading arrest - was the primary determinant of his sentence. See generally Dkt.
#7-5 at 54-55. For this reason, even if the Court were to assume his counsel should
have further investigated the other witnesses’ statements prior to sentencing,
Petitioner does not show that his counsel’s actions prejudiced him.
2. Claim 3(b)- Error by Trial Court
Like his claims of ineffective assistance of counsel, Petitioner does not show
the state trial court determined Petitioner’s sentence before his sentencing hearing.
As discussed above, Petitioner points to a notation on his plea agreement
paperwork initialed by “RR” that fills in the blank with “life sentence.” However,
25

Case 4:l5-cv-034ll Document 39 Filed on 08/12/19 in TXSD Page 26 of 27

Petitioner does not provide any evidence that the state trial judge made this
notation when he signed the plea agreement paperwork. In fact, as stated by the
Fourteenth Court of Appeals, the record does not support his conclusory claim that
the notation was made on that date. Based on the record available to the Court and
because Petitioner has not provided evidence that overcomes the strong
presumption of correctness for the factual determination made by the intermediate
court of appeals, the Court denies relief on claim three.
IV.

Certificate of Appealability

Rule 11 of the Rules Governing Section 2254 Cases requires a district court
to issue or deny a certificate of appealability when entering a final order that is
adverse to the petitioner. A certificate of appealability will not issue unless the
petitioner makes “a substantial showing of the denial of a constitutional right,” 28
U.S.C. § 2253(c)(2), which requires a petitioner to demonstrate “that reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Tennard v. Dretke, 542 U.S. 274, 282 (2004) (quoting Slack
v. McDaniel, 529 U.S. 473, 484 (2000)). The petitioner must show not only that
“jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right,” but also that they “would find it debatable
whether the district court was correct in its [] ruling.” Slack, 529 U.S. at 484.
Because jurists of reason would not debate whether the ruling in this case was
26

Case 4:15-cv-03411 Document 39 Filed on 08/12/19 in TXSD Page 27 of 27

correct, a certificate of appealability will not issue.
V.

Conclusion
Respondent’s motion for summary judgment (Dkt. #35) is GRANTED. As

a result, Petitioner’s § 2254 petition (Dkt. #1) is DENIED.

The case is

DISMISSED with prejudice. A certificate of appealability shall not issue.
SIGNED at Houston, Texas, on

,2019.

*
DAVID HITTNER
UNITED STATES DISTRICT JUDGE

27

Additional material
from this filing is
available in the
Clerk's Office.

